E-Mail Address:
briefs@wilsonepes.com

775 H Street, N.E.
Washington, D.C. 20002

Web Site:
www.wilsonepes.com

Tel (202) 789-0096
Fax (202) 842-4896

No. 20A95
REVEREND KEVIN ROBINSON AND
RABBI YISRAEL A. KNOPFLER,
Applicants,

v.
PHILIP D. MURPHY, IN HIS OFFICIAL CAPACITY AS THE
GOVERNOR OF NEW JERSEY, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that on December 3, 2020, three (3) copies of the MOTION FOR LEAVE TO
FILE BRIEF AS AMICI CURIAE AND BRIEF OF THE AMERICAN MEDICAL ASSOCIATION
AND THE MEDICAL SOCIETY OF NEW JERSEY AS AMICI CURIAE IN SUPPORT OF
RESPONDENTS in the above-captioned case were served, as required by U.S. Supreme Court
Rule 29.5(c), on the following:
STEPHEN M. CRAMPTON
THOMAS MORE SOCIETY
309 W. Washington St., Suite 1250
Chicago, IL 60606
Counsel for Applicants

JEREMY M. FEIGENBAUM
NEW JERSEY ATTORNEY GENERAL'S OFFICE
Richard J. Hughes Justice Complex
25 Market Street
Trenton, NJ 08625-0080
Counsel for Respondents

The following email addresses have also been served electronically:
scrampton@thomasmoresociety.org
jeremy.feigenbaum@njoag.gov
hquillen@whatleykallas.com
ROBYN DORSEY WILLIS
WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.
Washington, D.C. 20002
(202) 789-0096
Sworn to and subscribed before me this 3rd day of December 2

District of Columbia
My commission expires April 14, 2022.

